la

APPENDIX A
748 Fed.Appx. 1027 (Mem)
United States Court of Appeals, Federal Circuit.
STRAIGHT PATH IP GROUP, LLC, PlaintiffAppellant
v.
APPLE INC., Cisco Systems, Inc., DefendantsAppellees
2018-14912018-1492
January 23, 2019
Alipeals from the United States District Court for
the Northern District of California in Nos. 3:16-cv03463-WHA, 3:16-cv-03582-WHA, Judge William H.
Alsup.
Attorneys and Law Firms
Marc Aaron Fenster, Russ August & Kabat, Los
Angeles, CA, argued for plaintiff-appellant. Also
represented by Brian David Ledahl.
Catherine Emily Stetson, Hogan Lovells US LLP,
Washington, DC, argued for defendant-appellee
Apple Inc. Also represented by Celine Jimenez
Crowson, Mitchell Reich; Clayton Cole James,
Srecko Vidmar, Denver, CO.
John M. Desmarais, Desmarais LLP, New York, NY,
argued for defendant-appellee Cisco Systems, Inc.

2a

Also represented by Steven Marc Balcof, Timothy Q.
Li, Jennifer M. Przybylski, Justin P.D. Wilcox.
Chief Judge, Lourie and Stoll,
(Prost,
Judges).

Circuit

Per Curiam
JUDGMENT
THIS CAUSE having been heard and considered, it
is ORDERED and ADJUDGED:
AFFIRMED. See Fed. Cir. R. 36.
All Citations
748 Fed.Appx. 1027 (Mem)

3a

APPENDIX B
2017 WL 6372971
Only the Westlaw citation is currently available.
United States District Court, N.D. California.
STRAIGHT PATH IP GROUP, INC., Plaintiff,
v.
CISCO SYSTEMS, INC., Defendant.
Straight Path IP Group, Inc., Plaintiff,
v.
Apple Inc., Defendant.
No. C 16-03463 WHA, No. C 16-03582 WHA
Signed 12/13/2017
Attorneys and Law Firms
Adam Hoffman, Andrew D. Weiss, Brian David
Ledahl, Jacob Robert Buczko, Jeffrey Zhi Yang
Liao, Neil Alan Rubin, Paul Anthony Kroeger, Marc
Aaron Fenster, Russ August & Kabat, Benjamin T.
Wang, Attorney at Law, Los Angeles, CA, for
Plaintiff.
Wayne 0. Stacy, Elise Sabrina Edlin, Jeremy J.
Taylor, Sarah Joann Guske, Baker Botts L.L.P., San
Francisco, CA, David Carl Dotson, Shackire Oneil
Anderson, Duane Morris LLP, Atlanta, GA, Dreyer
Lauren, Thomas Chisman Martin, Baker Botts LLP,
Washington, DC, Jennifer M. Przybylski, John M.
P.D.
Malz, Justin
Desmarais, Jordan
Wilcox, Michael P. Stadnick,

4a

Desmarais LLP, New York, NY, Lauren May Eaton,
Baker Botts LLP, Palo Alto, CA, for Defendant.
ORDER GRANTING MOTIONS FOR
SUMMARY JUDGMENT OF
NONINFRINGEMENT AND ORDER TO SHOW
CAUSE
WILLIAM ALSUP, UNITED STATES DISTRICT
JUDGE
INTRODUCTION
In these related actions for patent infringement,
defendants move for summary judgment of
noninfringement. The motions are GRANTED.
STATEMENT
The essence of this order is that the patent owner
saved its patents from invalidity by making clear-cut
representations to the Federal Circuit—
representations that it cannot now disavow in order
to prove its infringement case. Being bound by the
Federal Circuit's rulings as a result of the patent
owner's prior representations, this order holds that
there is no way defendants' accused products
infringe the asserted claims at issue. The patent
owner and its counsel, the law firm of Russ, August
& Kabat, are further ordered to show cause why they
should not pay defendants' attorney's fees.
* *

The procedural background of these related actions
has been described in prior orders and need not be
repeated here (see Case. No. 16-3582, Dkt. Nos. 61,
78). In brief, plaintiff Straight Path IP Group, Inc.,

5a

sued defendant Cisco Systems, Inc., alleging
infringement of United States Patent Nos. 6,009,469
("the '469 patent"), 6,108,704 ("the '704 patent"),
6,131,121 ("the '121 patent"), and 6,701,365 ("the
'365 patent"). In a related action, Straight Path also
sued defendant Apple Inc. for allegedly infringing
these four patents plus United States Patent No.
7,149,208 ("the '208 patent").
The patents-in-suit belong to the same family and
"concern a system and method for enabling point-topoint communications between running computer
applications connected to the same computer
network." Specifically, they "disclose a point-to-point
Internet communications protocol that enables: (1) a
first computer program to query a connection server
to determine if a second computer program is
currently connected to the network, and (2) if the
second computer program is connected, to obtain its
existing network address so that the desired pointto-point communication can be established at the
time it is sought" (Case Nos. 16-3463, Dkt. No. 1 111
12-13; 16-3582, Dkt. No. 84 ¶¶ 12-13).
In July of this year, Straight Path narrowed its
asserted claims to the following (Case Nos. 16-3463,
Dkt. No. 86; 16-3582, Dkt. No. 101):
Against Cisco—
Claims 3, 6, and 9 of the '469 patent;
Claims 1, 6, 11, 22, and 39 of the '704 patent;
Claim 10 of the '121 patent; and
Claim 3 of the '365 patent.

6a

Against Apple—
Claims 3 and 6 of the '469 patent
Claims 1, 6, 34, and 39 of the '704 patent;
Claim 10 of the '121 patent;
Claim 3 of the '365 patent; and
Claims 1 and 2 of the '208 patent.
Cisco now moves for summary judgment of
noninfringement as to all asserted patents (Case No.
16-3463, Dkt. No. 125). Apple also moves for
summary judgment of noninfringement as to all
asserted patents with the sole exception of the '208
patent (Case No. 16-3582, Dkt. No. 131).
The "is connected" limitation now figures as the
common issue underlying both motions. Claim 1 of
the '704 patent is representative and reproduced
below (emphasis added):
A computer program product for use with a
computer system, the computer system executing a
first process and operatively connectable to a second
process and a server over a computer network, the
computer program product comprising: a computer
usable medium having program code embodied in
the medium, the program code comprising: program
code for transmitting to the server a network
protocol address received by the first process
following connection to the computer network;
program code for transmitting, to the server, a query
as to whether the second process is connected to the
computer network; program code for receiving a
network protocol address of the second process from

the server, when the second process is connected to
the computer network; and program code, responsive
to the network protocol address of the second
process, for establishing a point-to-point
communication link between the first process and
the second process over the computer network.
This is not the first time that litigation over Straight
Path's claimed invention, and the aforementioned
claim language specifically, has darkened the doors
of our judicial system. Prior proceedings before the
Patent Trial and Appeal Board and the Federal
Circuit provide crucial background that informs the
instant dispute and is summarized herein.
In 2013 and 2014, the Board analyzed the "is
connected" limitation during inter partes proceedings
challenging the validity of Straight Path's '704
patent. Prior art references in play during those
proceedings included NetBIOS and WINS. In its
decision, the Board described NetBIOS as follows:
NetBIOS ("Network Basic Input/Output
System") is a software interface that allows
applications on different computers to
communicate within a computer network, such
as a local area network or the Internet, and was
originally designed for IBM's PC-Network.
NetBIOS applications employ mechanisms to
locate resources, establish connections, send
and receive data with an application peer, and
terminate connections. A NetBIOS session is

8a

the exchange of messages between a pair of
NetBIOS applications.
The NetBIOS name service is the collection of
procedures through which nodes of a network
acquire, defend, and locate the holders of
NetBIOS names. A node registers a name with
the NetBIOS Name Server, which stores the
registered name in a database. A name query
transaction can be initiated by an end-node in
an attempt to obtain the IP address associated
with a NetBIOS name. If the NetBIOS Name
Server has information regarding a queried
node, the NetBIOS Name Server transmits a
positive response. If the NetBIOS Name Server
does not have information regarding a queried
node, the NetBIOS Name Server transmits a
negative response. Once the IP addresses have
been found for a target name, a NetBIOS
session service begins. The NetBIOS session
service involves directed (point-to-point)
communications.
The Board described WINS, an implementation of
NetBIOS, as follows:
WINS discloses how to install, configure, and
troubleshoot Microsoft TCP/IP on a computer
running the Microsoft Windows NT
Workstation or Windows NT Server operation
system. When a computer's name is registered
with the Windows Internet Name Service
server, the Windows Internet Name Service

9a

server accepts the entry with a timestamp, an
incremental unique version number, and other
information. A name query request is received
by the Windows Internet Name Service server
and allows a client to establish a session based
on the address mapping received from the
Windows Internet Name Service server. For
example, if a first computer wants to
communicate with a second computer, the first
computer queries the Windows Internet Name
Service server for the address of the second
computer. When the first computer receives the
appropriate address from the Windows Internet
Name Service server, it connects directly to the
second computer.
Sipnet EU S.R.O. v. Straight Path IP Grp., Inc.,
No. IPR2013-00246, 2014 WL 5144564, at *8,
11 (P.T.A.B. Oct. 9, 2014) (emphasis added,
citations and footnotes omitted).
To distinguish its claimed invention from NetBIOS
and WINS, Straight Path argued in critical part that
merely registering an address with a server, as with
NetBIOS and WINS, did not satisfy the "connected
to the computer network" or "being on-line"
requirement because "a process may be on-line at
the time of registration [but] may subsequently go
off-line" while maintaining its registered
status. Id. at *3, 8, 12. The Board disagreed and
concluded that the broadest reasonable construction
of "connected to the computer network" encompassed
"a processing unit that is 'active and on-line at

10a

registration.' " Id. at *4, 9, 13. Based in part on this
construction, the Board ultimately concluded that
"(1) claims 1-7, 32, and 38-42 are anticipated by
NetBIOS, (2) claims 1-7 and 32-42 are anticipated
by WINS, and (3) claims 33-37 are obvious over
NetBIOS and WINS." Id. at *15.
Straight Path appealed. In briefing before the
Federal Circuit, Straight Path explained (Case No.
16-3463, Dkt. No. 125-9 at 25 (italics added, bold in
original)):
Because the point-to-point communications
that are the focus of the patent occur in
realtime, it is also important to understand
what it means for a process to be "connected to
the computer network" or "on-line." A central
feature of the patented invention is a system for
determining whether the "second process"—the
target of a user's desired communication—is
actually connected to the computer network at
the time the communication is sought. This
temporal dimension is a key part of the claimed
invention. The challenged claims expressly
require a determination that the second process
"is connected to the computer network" at the
very moment when the first process queries
whether it (the second process) is connected
and available for communication.
Thus, Straight Path argued, the Board's conclusion
that NetBIOS and WINS anticipated or rendered
obvious the challenged claims rested on an erroneous

1 la

claim construction. Contrary to the Board, Straight
Path insisted that its claimed invention focused on
"the determination of whether a process is currently
connected to the computer network, not whether it
was previously connected," since "having once
registered with a name server is no indication that a
computer is actually connected to a computer
network or is on-line at the time a particular
communication is sought." In other words, Straight
Path described the crux of its invention as a
"temporal focus on the process's on-line status at the
time the desired communication is sought"—i.e., "at
the very instant in time when the first process
queries whether the second process is available"
(see id. at 12 (bold in original), 17-19, 22-23, 41-56).
During oral argument in Sipnet, Attorney James
Wodarski, counsel for Straight Path, doubled down
on these representations, specifically stating that
"critical to the 704 system as opposed to the prior art
is ... when the process goes offline, it has to
communicate that to the server. The server is
obliged and required to update that status by either
deleting that information of that process or flagging
it as offline." Attorney Wodarski further elaborated
on how this differed from the prior art as follows
(emphasis added):
Because it's doing it realtime, your Honor.
Remember, this patent is directed at
facilitating real time communication.

12a

When the first process wants to communicate
point to point, it's asking the server to confirm
that party is online and because dynamic
addresses can be assigned and reassigned, it's
saying, to confirm that it's on line at that
moment and it's online at that address.
So, you see, the database at that moment has to
be able to make that binary decision, your
Honor....
So it's not about whether at some earlier
moment in time that second callee process is
online or at some—any other time other than
when the first process says to the server, through
the program code, I want to communicate with
my peer.
I'm Skype on computer one. I want to
communicate with someone using the Skype
process on computer two.
Please tell me if they're on line, and if so, give
me the presently assigned dynamic
address. That binary decision has to be made by
the server then because it takes—the connection
server under the patent is required to do a
different thing based upon its decision and
determination.
He reiterated again later in oral argument, "The
difference between ours [and previous systems] is
that our database is obliged to keep updated. So it

13a

can actually answer that question [about online
status]." The court then pressed him to clarify the
point even further, in an exchange reproduced below
(emphasis added):
The Court: But you don't dispute even under your
interpretation the question of current connection is
determined by checking a database, right?
Mr. Wodarski: Checking the connection server
claimed by claim 1, yes.
The Court: The database, checking a database.
Mr. Wodarski: That's right, your Honor, but the
database—that begs the question of what the
database, what information it has.
The Court: Is the difference in your invention that
the database has to be updated when somebody logs
off?
Mr. Wodarski: Absolutely ....
The Court: Under your claim construction, the
database has to be always accurate. It cannot be ever
inaccurate. Fair?
Mr. Wodarski: Again, accurate is not the term. What
[it] has to do is, we know two things.
The Court: Accurate as to online status.

14a

Mr. Wodarski: Yeah, it has to be accurate for the
purpose of—
The Court: Always accurate.
Mr. Wodarski: Within the meaning....
The Court: Why—please try to respond to my
question. Under ... the prior art the database may
sometimes be inaccurate because something
happened which wasn't reflected in the database.
Your view is, the database must always be accurate
and that's the difference between you and the prior
art, correct?
Mr. Wodarski: That's ... correct, your Honor. We
must be accurate. You have to be able to say present
or current status. I just—
The Court: At the time of the query and the query—
Mr. Wodarski: Exactly.
In reliance on the foregoing representations, the
Federal Circuit agreed with Straight Path and
reversed the Board's decision, construing "is
connected to the computer network" and its
variations to mean "is connected to the computer
network at the time that the query is transmitted to
the server." Straight Path IP Grp., Inc. v. Sipnet EU
S.R.O., 806 F.3d 1356, 1363 (Fed. Cir. 2015); see
also id. at 1366 n.2 (quoting from the foregoing
exchange). On remand, the Board applied this
construction and upheld the validity of the

15a

challenged claims. The same result obtained in
involving
partes proceedings
subsequent inter
the '704, '469, and '121 patents. See LG Elecs., Inc.
v. Straight Path IP Grp., Inc., Nos. IPR2015-00196,
IPR2015-00198, IPR2015-00209, 2016 WL 2640549,
at *5-6, 10-11 (P.T.A.B. May 9, 2016).
Defending the appeal from those proceedings,
Straight Path once again successfully argued to the
Federal Circuit that neither NetBIOS nor WINS
queried whether a process "is connected to the
computer network," as required by the challenged
claims, because "not only is the prior art not
designed to keep track of current online status, it is
not designed to check online status when responding
to a query for a user's IP address." Samsung Elecs.
Co., Ltd. v. Straight Path IP Grp., Inc., 696
Fed.Appx. 1008, 1013 (Fed. Cir. 2017) (emphasis
added). For example, Attorney Wodarski, again
representing Straight Path, stressed during oral
argument in Samsung that the claimed invention
"has to be designed to always return an accurate and
reliable answer to the query" because "[t]hat's the
whole purpose for the system." He also reiterated
Straight Path's position that "our system also has
to track whether you are continuing to stay on
line. We either have to—there has to be some
mechanism in the system to flag you as off line....
The issue in SIPNET and the issue that controls
here is that the claim plainly requires that it track
that online status so that it can [make] the
determination at the time that the query is

16a

transmitted to the server" (see Case No. 16-3582, Dkt.
No. 131-19 at 14:17-17:25).
In its subsequent opinion, the Federal Circuit
in Samsung expressly recognized that "WINS and
NetBIOS both disclose querying a name server for
the registered address of the callee computer" and
further "disclose mechanisms for maintaining the
accuracy of the addresses registered in these name
server databases." It nevertheless agreed with
Straight Path that those disclosures were "not
sufficient" to invalidate the challenged claims in
light of Sipnet's holding that " 'a query that asks
only for registration information, regardless of its
current accuracy,' will not satisfy the claim
limitation." Samsung, 696 Fed.Appx. at 1014.
In the instant actions, all agree that "is connected to
the computer network" and its variations, including
"on-line status" and "accessible," should be construed
to mean "is connected to the computer network at
the time that the query is transmitted to the server,"
consistent with the Federal Circuit's construction
in Sipnet (Case Nos. 16-3463, Dkt. No. 32; 16-3582,
Dkt. No. 68). The sole dispute here is whether the
relevant limitations in the asserted claims actually
read onto Cisco and Apple's accused products. The
functionality of those products is described below
within the context of the parties' arguments.
* * *

During oral argument in Samsung, the Federal
Circuit and counsel for Straight Path had the

17a

following colloquy (Case No. 16-3582, Dkt. No. 13119 at 28:25-29:8):
The Court: You've boxed yourself into a pretty
narrow infringement argument, though, haven't you,
with this claim construction? In other words, a
system that only does what—what NetBIOS or
WINS did wouldn't infringe, right?
Mr. Wodarski: A system [that] does what NetBIOS
and WINS do does not meet the limitation of "is
connected," Your Honor; that's correct.
Despite having "boxed" itself into narrow
infringement territory to protect the validity of its
patents before the Federal Circuit, Straight Path
now seeks to reimagine its claimed invention with an
astonishingly overbroad theory in an effort to
capture Cisco and Apple's accused products. Cisco
and Apple move for summary judgment that their
accused products do not infringe the asserted claims
at issue because the undisputed facts show they do
not practice the "is connected" limitation as
construed by the Federal Circuit in reliance on
Straight Path's prior representations. After full
briefing and oral argument, this order agrees.
ANALYSIS
1. LEGAL STANDARD.
Summary judgment is appropriate when there is no
genuine dispute of material fact and the moving
party is entitled to judgment as a matter of law. A

18a

genuine dispute of material fact is one that "might
affect the outcome of the suit under the governing
law." Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247-48 (1986). In deciding a motion for summary
judgment, the court must believe the non-movant's
evidence and draw all justifiable inferences in their
favor. Id. at 255. "The mere existence of a scintilla of
evidence" or "some metaphysical doubt as to the
material facts" in the non-movant's favor, however,
will not suffice. Id. at 252, 261 (quoting Matsushita
Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S.
574, 586 (1986)). "Where the record taken as a whole
could not lead a rational trier of fact to find for the
non-moving party, there is no 'genuine issue for
trial.' " Matsushita, 475 U.S. at 587 (citation
omitted). Summary judgment of noninfringement is
proper here because, on the claim construction
provided by the Federal Circuit, no reasonable jury
could find infringement on the undisputed facts or
when all reasonable factual inferences are drawn in
favor of Straight Path. See Netword, LLC v. Centraal
Corp., 242 F.3d 1347, 1353 (Fed. Cir. 2001).
2. CISCO'S MOTION.
A. Cisco's Accused Products.
Cisco's accused products include the Cisco 9971 voice
over internet protocol ("VoIP")phone, the Unified
Communications Manager ("UCM"), and the Video
Communications Server ("VCS"). For purposes of the
instant motion only, Cisco disputes neither Straight
Path's lineup of accused products nor its description
of the accused products' functionality as set forth in
the report and deposition testimony of Straight

19a

Path's technical expert, J. Tipton Cole, who analyzed
Cisco's implementation of Session Initiation Protocol
("SIP") in the accused products "to enable basic
calling between two devices" (see Case No. 16-3463,
Dkt. No. 125 at 9-10).
According to Cole, the UCM is a server that acts as a
SIP "registrar" and maintains a database that
associates particular identifiers (e.g., extension
numbers or MAC addresses) with network contact
addresses (i.e., IP addresses and port information)
for endpoint processes. Each endpoint process
registers when it connects to the network.
Registrations expire every two minutes. During a
"basic call" between two processes, the first process
sends an INVITE message to the server by dialing a
number for the second process. The server then looks
up the registered IP address of the second process
and uses that address to send an INVITE message to
the second process (see id., Dkt. No. 139-8 ¶¶ 21, 2526, 32-34).
If the second process actually answers the call, then
it sends a 200 OK message back to the server. Upon
receipt of a 200 OK message, the server delivers the
first process's IP address to the second process via an
ACK message and delivers the second process's IP
address to the first process via a 200 OK message.
Both processes can then send and receive media
content directly from each other (see id. Vri 32-34).
Cole uses three diagrams, reproduced below, to
illustrate this sequence of events:

20a

B. Noninfringement.
The infringement theory described in Straight Path's
opposition to Cisco's motion is essentially that the
entire "sequence" of messages that make up Cisco's
"basic call" system, viewed in combination, meets the
"is connected" limitation. As Straight Path and Cole
tell it, by sending an INVITE message to the server,
the first process signals that it wishes to call the
second process. Thus, the first process necessarily
also asks if the second process is online because, of
course, a real-time, point-to-point communication
simply cannot occur otherwise. After receiving the
INVITE message from the first process, the server
uses "relatively current registration information" to
send an INVITE message to the second process. The
second process will return a 200 OK message if and
only if it actually answers the call, necessarily
indicating its online status. Thus, Straight Path and
Cole reason, the INVITE message from the first
process to the server constitutes a "query as to
whether the second process is connected to the
computer network" within the meaning of the
asserted claims (see, e.g., id., Dkt. Nos. 139-4 at 2-3,
8-15; 139-8 ¶¶ 375-76, 385-86, 424-25).
As Cisco points out, the 200 OK message that
"necessarily" implies the accessibility of the second
process is not generated unless and until after the
call has been answered by the second process. Cole
even admitted in deposition that the accused server
cannot determine whether or not the second process
is actually connected to the computer network at the
moment in time that the first process sends an

21a

INVITE message to the server (see id., Dkt. No. 1532 at 34:10-35:8). Instead, when the first process
indicates that it wants to call the second process, the
server simply forwards that message to the second
periodicallyon
only
based
process
of
regardless
and
information
updated registration
the second process's true online or offline status at
that moment in time. In contrast, the invention that
Straight Path described to the Federal Circuit
requires a server that is able to, at the very moment
in time that a first process asks, determine whether
or not a second process is online by checking its own
database, which must always remain accurate by
continuously tracking the online or offline status of
endpoint processes so that it can answer this very
question. The undisputed evidence shows that
Cisco's accused system simply does not work this
way.
Straight Path's attempt to bridge the gap between
the accused system and its claimed invention suffers
from multiple defects. First, it is inconsistent with
Straight Path's prior representations to the Federal
Circuit. Straight Path flat-out told the Sip net court
that the claimed server must ask its own alwaysaccurate database for the answer to a query about
the second process's online or offline status. Cisco's
accused system, however, does not have that
information within its- own database and must ask
the second process itself if it will answer a call (and
is therefore necessarily online to do so). Straight
Path's infringement theory would render a nullity
the requirement of an always-accurate database that

22a

tracks the current online or offline status of endpoint
processes—a requirement that Straight Path itself
had previously relied on as the key to distinguishing
its invention from the prior art.
Second, Straight Path's infringement theory would
expand its narrowly-preserved infringement theory
into one of breathtaking scope. According to Straight
Path, any server—no matter how accurate (or not)—
can satisfy the "is connected" limitation so long as it
makes some attempt to reach the second process in
response to a query from the first process. This is
because—as Straight Path and Cole repeatedly point
out—a successful attempt to reach the second
process will of course indicate that the second
process was online and accessible at the time of the
attempt. Similarly, insofar as the second process
must of course be online and accessible for real-time
communication to work, any call attempt by the first
process must necessarily entail a question as to
whether or not the second process is online and
accessible. This cannot be the narrow infringement
theory the Federal Circuit had in mind.
this expansion to Straight Path's
Third,
infringement theory rests on a premise so patently
obvious it cannot possibly be the key to any claimed
invention, even if Straight Path's interpretation of
its invention were not constrained by its prior
representations to the Federal Circuit. Straight Path
essentially purports to own Cisco's "sequence"
merely because (1) a caller's attempt to communicate
with a callee in real time necessarily implies a

23a

question as to whether or not the callee is accessible
at that time and (2) by responding to the attempt,
the callee necessarily implies they were indeed
accessible at the time. But the same would be true
of any "point-to-point communication," whether over
a computer network, land line, radio signal, or any
other medium. No invention, program code or
otherwise, would be necessary to deduce such basic
principles; common sense would suffice. It would be
absurd for Straight Path to claim ownership over
such principles. Contrary to Straight Path, the mere
fact that Cole was willing to serve as a mouthpiece
for this astonishing argument does not transform
said argument into "evidence" giving rise to any
genuine dispute of material fact (see, e.g., id., Dkt.
No. 139-4 at 2-3). Nor does the fact that Cisco's
witnesses "admitted" the aforementioned truisms
create any such dispute (see, e.g., id. at 13-14).
Fourth, the claimed invention, as Straight Path
would interpret it for infringement purposes, would
not achieve its purported goal of streamlining pointto-point communications by obviating the need to
attempt potentially-unsuccessful contact with the
second process. According to Straight Path and Cole,
the point of the claimed invention is to avoid having
to actually call the second process to determine
whether or not that second process is accessible. As
Cole explained in his rebuttal report (id., Dkt. No.
125-7 ¶ 65 (emphasis added)):
[T]he inventors conceived of a way to
streamline the process of connecting two

24a

the
abandoning
users--of
network
attempt earlier in the process—based on
insertion of a precursor step in the connection
process. The patent specifications posit the
circumstance in which a "caller" wants to make
a point-to-point connection with a "callee." One
known condition is that the caller is connected
to the Internet and knows its current network
protocol address. But the caller is not sure
whether the callee is connected to the Internet
or, if connected, what the callee's current
network protocol address is. Instituting a call
carries an expense in time and money as well
as consuming network resources such as
bandwidth. The caller could attempt to make a
point-to-point connection using network protocol
addresses from previous connections, or make
an attempt using the most recent or most
commonly successful network protocol address.
In each of these cases, though, the caller must
pay for the call setup and the call teardown—
even when the call fails because the intended
recipient was not even connected to the network.
By implementing the "query" elements of the
Asserted Claims, though, the caller can avoid
cost and uncertainty whenever the callee device
is not online.
This is consistent with what Straight Path told the
Federal Circuit—i.e., that the server must be able to
answer the query based on accurate information in
its own database. It is not consistent with what
Straight Path now argues for infringement

25a

purposes—i.e., that the online status of the second
process would necessarily be revealed by a successful
attempt to call it.
Straight Path suggests in its opposition brief that
the server's "relatively current registration
information" would somehow support a finding of
infringement (see, e.g., id., Dkt. No. 139-4 at 9-10).
But Straight Path itself previously distinguished its
claimed invention from systems that use "relatively
current" information as a surrogate for actually
offline
or
online
current
determining
status. See Sipnet, 806 F.3d at 1361 (a process that
"is still registered, once was connected, and may or
may not still be connected" is not the same as a
process that "is connected" within the meaning of the
asserted claims). This is the way that the Federal
Circuit, relying on Straight Path's representations,
articulated the key distinction between the claimed
invention and the prior art during oral argument
in Sipnet (emphasis added):
[T]he issue here is whether is connected means
current information, it's always accurate, or
whether it means checking a database as a
surrogate which may be sometimes inaccurate,
but is, quote, relatively current, right?
The Federal Circuit accepted that distinction, indeed
relied on it, and it remains binding on Straight Path
here. Straight Path cannot prove infringement by
pointing to defendants' use of "relatively current
registration information" in their databases.

26a

In its opposition, Straight Path also resists the
notion that its claimed invention requires a
determination of the second process's status at the
"precise instant in time" when the first process's
query is sent to the server. The Federal Circuit
in Sipnet distinguished the claimed invention from
prior systems that used "stale" information, Straight
Path reasons, so a system that retrieves "accurate"
and "current" information about the second process's
status—even if it does so after the first process's
query to the server—still falls within the Federal
Circuit's construction because later information
would reflect the second process's status
even more accurately than would information
retrieved at the "precise instant in time" that the
query was sent to the server (see Case No. 16-3463,
Dkt. No. 139-4 at 15-18). This is simply sleight of
hand on Straight Path's part. To repeat, Straight
Path itself argued to the Federal Circuit that its
claims require a determination as to the second
process's status "at the very instant in time when the
first process queries" the server (see id., Dkt. No. 1259 at 43 (emphasis added)).
That phrase deserves to be repeated: "At the very
instant in time."
Consistent with that position, Sipnet held that the
plain language of "is connected to the computer
network" requires a determination about the second
process's present status at the time the query is
sent. 806 F.3d at 1361. Beyond that, as explained,
Straight Path's claim to ownership lapses into

27a

absurdity insofar as it attempts to capture the
truism that a second process that answers a
call must necessarily have been accessible at the time
of the call.
Straight Path's asserted claims, properly construed,
simply do not read onto Cisco's accused products.
Notwithstanding Straight Path an Cole's arguments
to the contrary, the undisputed facts show that
Cisco's server does not track the current online or
offline statuses of endpoint processes, nor can it
determine that information by asking its own
database at the very moment in time that it is
queried. Instead, when the accused server receives
an INVITE message or "query" from a first process,
it simply attempts to make the requested call using
periodically-updated registration information
regardless of whether or not the second process
is actuallyonline at that very moment. Of course, if
the second process answers the call, then that
necessarily implies it was online at the time of the
attempt—but this truism proves nothing for Straight
Path. No rational jury could find Cisco liable for
infringement on this record.
3. APPLE'S MOTION.
A. Apple's Accused Product.
Straight Path accuses Apple's FaceTime, a computer
program that relies on the FaceTime server and
Apple Push Notification Service ("APNS") to enable
peer-to-peer video communications between Apple
devices. APNS thinks of FaceTime as a "push
provider" and Apple devices as "push platforms"

28a

identified by "push tokens." The FaceTime server
registers push tokens to users through Unique
Resource Identifiers ("URI") like email addresses or
phone numbers. Each Apple device that connects to
the network registers its push token with the APNS
server so that it can send and receive various
messages and notifications as part of a "Presence"
database. If a device disconnects, it can signal the
APNS server to remove its connectivity information
from the Presence database. The APNS server
periodically checks device connections at ten to sixtyminute intervals and removes devices that fail to
check in. There are numerous situations wherein the
APNS server will not detect a disconnected device, so
its registration data is frequently wrong.
When an Apple device makes a FaceTime call, the
FaceTime server looks up the push tokens associated
with the specified recipient's URI and calls the
APNS server to send an "Invite Push" message to
each Apple device associated with those push tokens.
The "Invite Push" message includes an IP address
for the caller device. If the APNS server determines
that a specified push token appears in the Presence
database, it will not further determine whether the
associated device is actually connected to the
network but will simply attempt to deliver the
"Invite Push" message.
Upon receiving an "Invite Push" message, the callee
user can accept, reject, or ignore the call. If and only
if the callee user accepts the call, their device will
create and send an "Accept Request" message with

29a

its IP address to the FaceTime server. The two
devices can then connect directly to each other using
each other's IP addresses (see Case No. 16-3582, Dkt.
Nos. 131-1 TT 4-5, 8-14, 17-21; 136-7 TT 35-42).
Cole, who is also Straight Path's expert on the
subject of Apple's alleged infringement, uses the
following diagram to illustrate this process:
B. Noninfringement.
Like Cisco's accused server, Apple's accused server—
at the time that it receives a query from the first
process—does not know if the second process is
actually online. It simply checks a periodicallyupdated registration database and then attempts to
transmit a message to the second process regardless
of whether or not the second process is actually online
at that very moment in time (see, e.g., id., Dkt. No.
144-3 at 174:20-23 (Cole agreeing that the FaceTime
system "sends the invite push to the callee before it
knows whether the callee is online")). If the second
process actually responds to the message by
accepting the call, then both the server and the first
process know by obvious inference that the second
process was indeed online when the server
attempted to contact it.
Straight Path's tactic for accusing FaceTime mirrors
its tactic for accusing Cisco's products. For example,
Straight Path cites its expert, Cole, for the
proposition that "[a]ny query about having a
FaceTime call necessarily involves a query as to
whether the other party 'is connected' because that
is the only way to have a FaceTime call. The
message seeks to establish a FaceTime call with

30a

another device. The callee must be on-line to have a
FaceTime call." Straight Path also claims Apple's
expert, Owen Astrachan, "admitted" that it is not
possible to "have a call with someone who's not
online." These truisms, according to Straight Path,
constitute evidence that the series of messages
between Apple devices and Apple's servers required
to set up a FaceTime call infringes Straight Path's
patents (see, e.g., id., Dkt. Nos. 136-4 at 1-4, 7-12;
136-7 ¶¶ 254-55, 292-300). As explained, this is
inconsistent with Straight Path's prior
representations to the Federal Circuit that its
claimed invention turned on the ability to determine
the online or offline status of the second process by
querying a server with an always-accurate database
that tracked the current statuses of endpoint
processes. In addition, no purported invention, let
alone one as narrow as what Straight Path got by
the Federal Circuit, could turn on a principle as
basic and commonsensical as the inference that any
callee responding to a call must have been accessible
at the time of the call.
In its opposition to Apple's motion, Straight Path
incredibly accuses Apple of trying to rewrite the
proper construction of the "is connected" limitation.
Contrary to Apple, Straight Path contends, that
the
that
does not require
limitation
'system track the current connectivity status of
the devices' such that the server knows whether a
device is connected 'before placing a call' " (see id.,
Dkt. No. 136-4 at 15-16 (bold and italics in
original)). (Confusingly, Straight Path also says later

31a

in the very same brief, "Apple is incorrect in arguing
that Straight Path now contends that infringing
systems do not have to track current on-line
connectivity status"(see id. at 17).) Again, this is not
what Straight Path has repeatedly told the Federal
Circuit. Moreover, Straight Path's own expert had
opined that determining the recipient's online or
offline status before attempting to place a call was
precisely the point of the claimed invention, further
highlighting Straight Path's efforts to make a
moving target out of its claimed invention (see Case
No. 16-3463, Dkt. No. 125-7 ¶ 65 (emphasis added)).
A further example of Straight Path's disingenuous
litigation tactics deserves mention. During oral
argument in Samsung, counsel for Straight Path
specifically explained that its claimed invention "has
to track" whether a computer that has come online
and registered is "continuing to stay on line" (Case
No. 16-3582, Dkt. No. 131-19 at 16:24-17:25). And in
its decision, the Federal Circuit specifically stated:
The Board's determination is supported by
substantial evidence, Straight Path argues,
because "not only is the prior art not designed to
keep track of current online status, it is not
designed to check online status when
responding to a query for a user's IP
address." We agree with Straight Path.
Samsung, 696 Fed.Appx. at 1013 (emphasis added).

32a

In its opposition to Apple's motion, Straight Path
actually quotes the foregoing passage of
the Samsung decision and then claims, "Straight
Path's argument to the Federal Circuit, that the
prior art did not meet the limitation because it did
not 'check online status when responding to a query
for a user's IP address,' is wholly consistent with
Straight Path's argument here" (Case No. 16-3582,
Dkt. No. 136-4 at 16 (emphasis added)). The earlier
part of the same passage—that the prior art was
"not designed to keep track of current online
status"—is relegated to a tagalong footnote where
Straight Path baldly asserts that, even if it had
argued that "tracking online status" was a
requirement of the "is connected" limitation (as it
most definitely had), it would not matter "because
the Federal Circuit did not rely on such an
argument" (id. at 16 n.7). Nonsense. The Federal
Circuit plainly did, as evident from both
the Samsung decision and the unambiguous record
of Straight Path's repeated representations to the
Federal Circuit in both Sipnetand Samsung.
In a similar vein, Straight Path suggested at the
hearing on the instant motions that an accused
system can meet the "is connected" limitation
online
current
of
track
by either keeping
status or checking online status (e.g., by simply
attempting to call the second process). Thus,
Straight Path argued, the claimed invention
does not require that the server determine the
second process's online or offline status solely by
checking its database at the time of the first

33a

process's query (see, e.g., id., Dkt. No. 153 at 14:623). But Straight Path has repeatedly told the
Federal Circuit that its claimed invention requires
precisely that. Indeed, the Federal Circuit
in Sip net went to great pains during oral argument
to pin down this exact point. Having won on
invalidity based on those representations, Straight
Path cannot now take a different position for
purposes of proving infringement. And, to repeat,
insofar as Straight Path suggests it can own systems
that "check online status" based solely on the
obvious inference that only an accessible callee can
actually answer a call, that suggestion is absurd.
Straight Path then argues that even if the "is
connected" limitation required "tracking," there is a
genuine dispute of material fact as to infringement
because Apple's Presence database is "continuously
maintained" with periodic check-ins every ten to
sixty minutes (see id., Dkt. No. 136-4 at 16-17).
Wrong again. In Samsung, the Federal Circuit—
citing its earlier decision in Sipnet—concluded that
WINS and NetBIOS did not satisfy the "is
connected" limitation even though "both references
disclose mechanisms for maintaining the accuracy of
the addresses registered in [their] name server
databases" through periodic updates. See 696
Fed.Appx. at 1012, 1014. This was consistent with
Straight Path's representations in Sipnet that a
"relatively current" database cannot serve as a
surrogate for the accuracy required by its claimed
invention. Inasmuch as Straight Path successfully
argued to the Federal Circuit that periodic

34a

maintenance of registration databases did not suffice
to invalidate its patents before, it cannot argue that
similar periodic maintenance by Apple suffices to
infringe its patents now.
Straight Path also attempts to blur the differences
between Apple's system and the claimed invention
by asserting that Samsung expressly rejected an
"accuracy" requirement for the claims at issue
(see Case No. 16-3582, Dkt. No. 136-4 at 17-18). This
argument misreads the relevant portion of Samsung,
which merely explained that the Board did not
improperly "import an additional perfect accuracy
limitation" and, insofar as the Board discussed
"accuracy," it simply followed precedent set
by Sipnet. 696 Fed.Appx. at 1013. Nothing
in Samsung purported to erase the temporallysensitive "accuracy" requirement inherent
in Sipnet's construction of the "is connected"
limitation. This is consistent with Straight Path's
insistence, during oral argument in Samsung, that
the claimed system "has to be accurate and reliable"
and "has to be designed to always return an accurate
and reliable answer" (see Case No. 16-3582, Dkt. No.
131-19 at 14:5-15:20). In short, Samsung does not
support Straight Path's argument that the
substantial inaccuracy of Apple's accused database—
which contains possibly millions of wrong entries on
a daily basis—"is irrelevant to the issue of whether it
infringes the claims" (see id., Dkt. No. 136-4 at 18-19
(emphasis added)).

35a

The undisputed facts show that the asserted claims
at issue, properly construed, simply do not read onto
Apple's accused product. Apple's accused server does
not track the current online or offline statuses of
Apple devices but simply attempts to transmit
received push notifications based on information
registration
periodically-updated
a
from
database regardless of whether or not the intended
recipient is actually online at that moment in
time. Again, the mere fact that a response from the
intended recipient necessarily implies the recipient's
online status proves nothing for Straight Path. On
this record, no rational jury could find Apple liable
for infringement of the claims at issue.
CONCLUSION
To the foregoing extent, defendants' motions for
summary judgment of noninfringemen
are GRANTED.
This ruling covers all patents asserted against Cisco.
In Case No. 16-3463, Straight Path's motions for
summary judgment of no invalidity and to strike
certain evidence by Cisco's damages expert (Dkt.
Nos. 126, 128) are DENIED AS MOOT. The parties'
requests to file Daubert motions (Dkt. Nos. 144-45)
are likewise DENIED AS MOOT. Judgment will
follow.
This ruling also covers all patents asserted against
Apple with the sole exception of the '208 patent. In
the Court's view, no more judicial resources should
be invested in determining the validity (or

36a

invalidity) of patents covered by this ruling of
noninfringement. By NOVEMBER 16 AT NOON,
Apple shall file a statement (1) explaining any
disagreement (or agreement) with this view and (2)
proposing a plan for the '208 patent going forward.
By NOVEMBER 27 AT NOON, Straight Path and its
counsel, the law firm of Russ, August & Kabat,
shall SHOW CAUSE in writing why they should not
be held liable for defendants' attorney's fees by
virtue of this being an "exceptional" case within the
meaning of Section 285 of Title 35 of the United
States Code.
IT IS SO ORDERED.

37a

APPENDIX C
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
STRAIGHT PATH IP GROUP, LLC,
Plaintiff — Appellant,
v.
APPLE, INC., CISCO SYSTEMS, INC.
Defendants — Appellees.
Case No. 17-1491, -1492
Appeals from the United States District Court for the
Northern District of California in Case Nos. 3:16-cv03582 -WHA and 3: 16-cv-03463-WHA,
Hon. William H. Alsup
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O'MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges,
PER CURIAM.

38a

ORDER
Appellant Straight Path IP Group, LLC filed a
combined petition for panel rehearing and
rehearing en banc. The petition was referred to the
panel that heard the appeal, and thereafter the
petition for rehearing en banc was referred to the
circuit judges who are in regular service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 4,
2019.
March 28, 2019

FOR THE COURT
/s/Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

39a

APPENDIX D

Case No. 17-1491, -1492
United States Court of Appeals
for the Federal Circuit

STRAIGHT PATH IP GROUP, LLC,
Plaintiff — Appellant,
v.
APPLE, INC., CISCO SYSTEMS, INC.
Defendants — Appellees.
Appeals from the United States District Court for the
Northern District of California in Case Nos. 3:16-cv03582-WHA and 3:16-cv-03463-WHA,
Hon. William H. Alsup
PLAINTIFF-APPELLANT'S PETITION FOR
PANEL REHEARING AND REHEARING EN
BANC
August 14, 2019 Marc A. Fenster
RUSS AUGUST & KABAT
12424 Wilshire Boulevard, Los
Angeles, California 90025
Telephone: (310) 826-7474
Counsel for Plaintiff-Appellant
Straight Path IP Group, LLC

40a

Appellant Straight Path IP Group, LLC
("Straight Path") respectfully seeks rehearing and
suggests rehearing en banc of the panel decision in
this matter. The panel entered a summary
affirmance, pursuant to Fed. Cir. R. 36. The panel
judgment did not set forth any reason or rationale
for its determination or any basis for the affirmance
of the judgment entered below. Straight Path is
unable to determine the basis for this Court's
judgment, nor how it might affect Straight Path's
patent rights with regard to others not a party to
this action. Straight Path respectfully submits that
this judgment exceeds the permissible scope of Fed.
Cir. R. 36. Further, to the extent that Fed. Cir. R. 36
does permit entry of judgment in the form of a
summary affirmance without statement of any
reason or rationale for the decision, Straight Path
respectfully submits that the scope of the rule, as
applied, violates Constitutional guarantees of due
process under the Fifth Amendment. In particular,
the lack of an explanation of the basis for this
Court's judgment effectively blocks further review of
this Court's ruling on its merits, either through
rehearing in this Court or through petition for writ
of certiorari to the United States Supreme Court.
Because this Court's use of the summary affirmance
procedure of Federal Rule 36 was inappropriate,
Straight Path respectfully seeks rehearing and/or
rehearing en banc.

41a

APPLICATION OF RULE 36 TO COMPLEX
DETERMINATIONS OF A DISTRICT COURT
IS NOT APPROPRIATE
This case involved a complex record from two
related district court actions involving multiple
The underlying dispute began in
patents.
September 2014, and included multiple challenges to
the patents-in-suit before the Patent Trial and
Appeal Board in Inter Partes Review ("IPR")
proceedings. This Court heard two previous appeals
from those IPR proceedings which resulted in
confirmation of the validity of the patents. After the
confirmation of the validity of the patents by the
PTAB and this Court, Straight Path brought the
underlying district court actions against both Apple
and Cisco for infringement. Those district court
actions proceeded in coordinated fashion through
summary judgment. Both Apple and Cisco sought
In
summary judgment of non-infringement.
response, Straight Path submitted extensive
rebuttal evidence, including extensive and detailed
testimony from its own expert, admissions from
Apple and Cisco's employees and corporate
representatives, and Apple and Cisco's expert
witnesses. The parties, represented by over 25
attorneys, submitted over 2,500 pages of briefing and
The summary
evidence to the district court.
judgment briefing itself included over 150 pages of
argument.
The district court's ruling granting the
motions for summary judgment of non-infringement
was not clear in setting forth the precise basis for

42a

the ruling. This Court had previously issued a
construction of the claim element at issue. The
district court appeared to re-interpret this Court's
construction to add additional limitations,
purportedly based on arguments made to this Court
by Straight Path's counsel during the appeals of the
IPR decisions (arguments made, notably, before this
Court issued and re-affirmed its construction). The
appeal presented questions of whether and to what
extent it was proper for the district court to reinterpret this Court's construction based on such
statements, what legal doctrine would govern the
review of such reinterpretation (judicial estoppel,
prosecution history estoppel, or some other doctrine),
and to what extent it is proper for a district court to
engage in such re-interpretation at all. Straight
Path also asserted in this appeal that the district
court erred in disregarding evidence that created a
genuine issue of material fact without making any
finding of a basis for disregarding such evidence
(e.g., that the testimony of an expert was merely
conclusory).
All of these are complex issues that were
legitimately contested by the parties. As just one
example, the question of when and to what extent a
district court may look to statements made by a
party in argument to this Court, and already
considered by the Court, to re-interpret a holding of
this Court is not something that any prior precedent
of this Court answers. Further, the doctrine under
which such analysis should take place is also not
something addressed by any precedent of this Court.

43a

Given the increasing number of appeals from
proceedings before the PTAB, such issues are likely
to be repeated.
Federal Circuit Rule 36 provides that an
affirmance without opinion is only permitted when
any of five conditions exist and "an opinion would
While there is
have no precedential value."
legitimate question that such circumstances are ever
truly present, they are certainly not present in the
instant case. Resolving any of the issues noted
above would have precedential value to the
numerous patent holders who face a similar
situation where an accused infringer seeks to use
statements made in argument to this Court to reinterpret Court holdings.
This appeal also presented multiple complex
issues. This Court did not explain what issues were
the basis for its judgment, which of the five
conditions in Rule 36 applied, or even if a majority of
the members of the panel concurred in the reasons
for affirmance. Because an opinion addressing any
of them would have significant precedential value,
application of Federal Circuit Rule 36 to this case
was not appropriate.
APPLICATION OF RULE 36 VIOLATES DUE
PROCESS
This Court has previously stated that the
Supreme Court has authorized summary
determinations such as those permitted under
Federal Circuit Rule 36, relying on the Supreme

44a

Court's ruling in Taylor v. McKeithen, 407 U.S. 191,
194, n.4. But in Taylor, the Supreme Court vacated
a court of appeals judgment and remanded because
the lack of opinion as to the basis of the Court's
judgment effectively interfered with the fair
opportunity of the Supreme Court to consider a
petition for a writ of certiorari. Taylor, 407 U.S. at
194.
Members of this Court have previously
acknowledged the extent to which a Rule 36
summary affirmance has the practical effect of
preventing meaningful review of the decision. See
Memorylink Corp. v. Motorola, Inc., 676 F.3d 1051,
1051-53 (Fed. Cir. 2012) (O'Malley, J. dissenting
from denial of a petition for rehearing en Banc).
Judge O'Malley noted that the use of Rule 36
judgment should not preclude further review and
that "parties should not be discouraged from asking
the entire court to assess the propriety of those
judgments." Id. at 1052-53 (referencing a challenge
to the Court's subject matter jurisdiction). But
Judge O'Malley's assertions were rendered in
dissent, presumably because the use of the Rule 36
procedure effectively precluded further review on
rehearing.
Further, this Court's jurisprudence on the
collateral estoppel effect of Rule 36 judgments
highlights the problems presented by its application
here. In TecSec, Inc. v. International Business
Machines Corp., 731 F.3d 1336 (Fed. Cir. 2013), this
Court confronted the collateral estoppel effect of a

45a

Rule 36 affirmance when there were multiple
possible grounds for the judgment below offered by
the district court. There, the district court had
granted summary judgment of non-infringement on
alternative grounds of insufficient evidence and on a
claim construction issue. This Court ruled that the
Rule 36 affirmance could not create collateral
estoppel as to the claim construction issue because it
was not necessary to affirm the judgment. Id. at
1343-44. Conversely, in Phil-Insul Corp. v. Airlite
Plastics Co., 854 F.3d 1344 (Fed. Cir. 2017), this
Court came to the opposition conclusion (that
collateral estoppel did apply) because it
subsequently determined that both claim
constructions that were the subject of the underlying
appeal were independently necessary to the
judgment. In this case, the district court's decision
was not clear on the grounds that formed the basis
for its judgment, nor the extent to which they were
alternative grounds or independently necessary to
the judgment. For example, the district court's
ruling could have been grounded in some kind of
unexplained estoppel, a new interpretation of the
relevant claim language, a re-interpretation of this
Court's prior holdings, or a determination to
disregard evidence. While Straight Path respectfully
submits that none of these rationales could correctly
support the district court's judgment, this Court's
summary affirmance provides no guidance as to the
collateral estoppel effect of any of these possible
Such uncertainty prejudices Straight
theories.
Path's ability to understanding the remaining value
of the patents-in-suit, and has deprived Straight

46a

Path of the certainty that should be afforded as a
result of its constitutional right to an appeal.
Litigants before this Court have a right to
seek review of this Court's determinations. They
may petition for rehearing or rehearing en banc.
They may also petition the United States Supreme
Court for a writ of certiorari to review a
determination of this Court. 28 U.S.C. § 1254.
Further, such litigants have a Constitutional right to
due process pursuant to the Fifth Amendment to the
Constitution, including in connection with such
petitions for review. The use of a Rule 36 summary
affirmance in this case interferes with Straight
Path's due process rights because it fundamentally
handicaps Straight Path's ability to seek review of
this Court's determination. As noted previously,
Straight Path has no way to know the basis for this
Court's determination, or to assess the extent to
which this Court incorrectly applied precedent of
this Court or the Supreme Court in reaching that
determination. The use of the Rule 36 summary
affirmance in this case effectively operates to
insulate the Court's judgment from meaningful
review by withholding the basis for the Court's
determination. This denies Straight Path due
process by interfering with its ability to exercise the
rights to review granted by the Federal Rules of
Appellate Procedure, and by statute. Indeed, this
interference with review created the need for
remand in the Supreme Court's Taylor decision,
supra.

47a

Federal Courts have previously recognized the
constitutionally suspect nature of even nonprecedential opinions, much less the lack of any
stated reason for a ruling. For example, the Court of
Appeals for the 8th Circuit has noted the flaw in the
rationale for such decisions:
"We do not have time to do a decent enough job, the
argument runs, when put into plain language, to
justify treating every opinion as a precedent. If this
is true, the judicial system is indeed in serious
trouble, but the remedy is not to create an
underground body of law good for one place and time
only. The remedy, instead, is to create enough
judgeships to handle the volume, or, if that is not
practical, for each judge to take enough time to do a
competent job with each case. If this means that
backlogs will grow, the price must still be paid."
Anastasoff v. United States, 223 F.3d 898, 904 (8th
Cir. 2000), vacated as moot on other grounds, 235
F.3d 1054 (8th Cir. 2000).
Other commentators have similarly noted the
concerns with the issuance of appellate judgments
without any statement of the reasons therefor.
Judge Harold Leventhal noted "there is
accountability in the giving of reasons." Harold
Leventhal, Appellate Procedures: Design, Patchwork,
and Managed Flexibility, 23 UCLA L. Rev. 432, 438
(1976). Judge Patricia Wald similarly noted that
"[t]he discipline of writing even a few sentences or
paragraphs explaining the basis for the judgment
insures a level of thought and scrutiny by the court
that a bare signal of affirmance, dismissal, or

48a

reversal does not." Patricia M. Wald, The Problem
with the Courts: Black-Robed Bureaucracy or
Collegiality Under Challenge?, 42 MD L. Rev. 766,
782 (1983). Other commentators have similarly
criticized the use of this procedure and noted
concerns about how it undermines the rights of
litigants and patent-holders. See generally, Rebecca
A. Lindhorst, Because I Said So: The Federal Circuit,
The PTAB, And The Problem With Rule 36
Affirmances, 69 Case W. Res. L. Rev. 247 (2018);
Nathan Dodell, On Wanting to Know Why, 2 Fed.
Cir. B.J. 465 (1992); David F. Johnson, "You Can't
Handle The Truth!" — Appellate Courts' Authority To
Dispose Of Cases Without Written Opinions, 22 App.
Advoc. 419 (2010).
The summary affirmance issued by the Court
here interferes with Straight Path's due process
right to fairly present a request for review of this
Court's decision, including pursuant to Federal
Rules of Appellate Procedure 35 and 40, and 28
U.S.C. § 1254. The Court's summary affirmance
does not identify the basis of the ruling, or even if a
majority of the panel concurred on the basis of the
ruling. This interference with Straight Path's due
process rights requires either a different result in
this case, or a re-evaluation of the Court's use and
application of Rule 36 to cases like that presented
here.

49a

CONCLUSION
In light of the foregoing, Straight Path
respectfully requests rehearing or rehearing en banc
of the judgment entered in this matter.
Dated: February 22, 2019

/s/ Brian D. Ledahl

